OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/VIETNAM’S
PROCUREMENT AND
DISTRIBUTION OF
COMMODITIES FOR THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF

AUDIT REPORT NO. 5-440-08-007-P
JULY 7, 2008




MANILA, PHILIPPINES

Office of Inspector General



July 7, 2008

MEMORANDUM

TO:      	         Acting Representative USAID/Vietnam, Roger D. Carlson

FROM: 	            Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:	          Audit of USAID/Vietnam’s Procurement and Distribution of Commodities for the
                   President’s Emergency Plan for AIDS Relief (Report No. 5-440-08-007-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
In finalizing the report, we considered your comments to the draft report and included the
comments (without attachments) in appendix II.

This report contains four recommendations intended to strengthen recordkeeping and inventory
management of commodities procured and distributed for the President’s Emergency Plan for
AIDS Relief, as well as improve the accuracy of reporting on the “number of individuals on
antiretroviral therapy”.   USAID/Vietnam agreed with the findings and recommendations
contained in the draft report. Based on your comments and the documentation provided, we
consider that final actions have been taken on Recommendation Nos. 1, 2, and 4 and a
management decision has been reached for Recommendation No. 3. A determination of final
action for Recommendation No. 3 will be made by the Audit Performance and Compliance
Division (M/CFO/APC) upon completion of the proposed corrective actions.

Thank you for the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
President Diosdado Macapagal Blvd., 1308
Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


     Has USAID/Vietnam procured, deployed, and 

     warehoused its PEPFAR commodities to help 

     ensure that intended results were achieved, 

     and what has been the impact? 


Audit Findings ................................................................................................................. 5 


     Recordkeeping and Inventory Management of
     PEPFAR Commodities Need Strengthening............................................................... 7

     PEPFAR Performance Results Were
     Not Always Reported Accurately............................................................................... 10 


Evaluation of Management Comments ....................................................................... 12 


Appendix I – Scope and Methodology ........................................................................ 13 


Appendix II – Management Comments ....................................................................... 15 

SUMMARY OF RESULTS

During fiscal year (FY) 2007, USAID/Vietnam obligated $15.7 million and disbursed $6.3
million for antiretroviral drugs1 and HIV test kits in support of the President’s Emergency
Plan for AIDS Relief (PEPFAR) in Vietnam. PEPFAR is the U.S. Government strategy
to prevent, treat, and care for individuals with HIV/AIDS (see page 3).

The Office of Inspector General conducted this audit as part of its FY 2008 audit plan to
determine whether USAID/Vietnam procured, deployed, and warehoused its PEPFAR
commodities to help ensure that intended results were achieved, and to determine the
impact of these efforts (see page 4).2

The audit concluded that USAID/Vietnam procured, deployed, and warehoused its
commodities to help ensure that intended results were achieved. The mission’s efforts
made a substantial impact by helping people with HIV/AIDS live longer and healthier
lives (see page 5). Specifically, the mission’s use of PEPFAR funds helped 8,991
individuals who were on antiretroviral therapy3 as of September 30, 2007, which was 120
percent of the mission’s target of 7,500 individuals. The target was exceeded because
the mission’s primary procurement partner was able to buy more drugs to treat more
individuals than originally planned when it bought generics at much lower costs (see
page 6).

Despite USAID/Vietnam’s achievements, the mission could help strengthen
recordkeeping and inventory management of PEPFAR commodities at storage
warehouses and health facilities in Vietnam. A number of discrepancies were
discovered in the mission’s recordkeeping and drug inventory counts. Inaccurate
recordkeeping could affect the amount of drugs ordered at each health facility and could
lead to stock-outs, shrinkage, and waste (see page 7).

Additionally, PEPFAR performance results from the health facilities were not always
reported accurately to USAID. Specifically, discrepancies were found in the “number of
individuals on antiretroviral therapy,” a key PEPFAR performance indicator. These
discrepancies increased the risk that reported data may not provide an accurate
reflection of performance results and that target-setting may use invalid and unreliable
data (see page 10).

This report made four recommendations to help strengthen recordkeeping and inventory
management of PEPFAR commodities, as well as improve the accuracy of reporting on
the “number of individuals on antiretroviral therapy” (see pages 9 and 11).
USAID/Vietnam agreed with the findings and recommendations contained in the draft

1
    Antiretroviral drugs are commonly referred to as ARV drugs, or ARVs.
2
  For purposes of this audit, PEPFAR commodities are defined as products purchased with
PEPFAR funding for the prevention and treatment of HIV/AIDS, including test kits, lab equipment,
lab supplies, and essential antiretroviral drugs and medicines used to prevent and treat
HIV/AIDS-related opportunistic infections. PEPFAR commodities will be referred to as
“commodities” throughout this report.
3
    Antiretroviral therapy is commonly referred to as ART.


                                                                                              1
report. Based on a review of the mission’s comments, detailed actions, and subsequent
supporting documents received, the Office of Inspector General determined that final
actions have been taken on Recommendation Nos. 1, 2, and 4 and a management
decision has been reached for Recommendation No. 3. A determination of final action
for Recommendation No. 3 will be made by the Audit Performance and Compliance
Division (M/CFO/APC) upon completion of the proposed corrective actions (see page
12).

USAID/Vietnam’s written comments on the draft report are included in their entirety
(without attachments) as appendix II to this report.




                                                                                   2
BACKGROUND 

In May 2003, Congress enacted legislation to fight HIV/AIDS globally through the
President’s Emergency Plan for AIDS Relief (PEPFAR). Although PEPFAR originally
planned to provide $15 billion over 5 years for the prevention, treatment, and care of
individuals with HIV/AIDS,4 $18.8 billion has been committed through January 3, 2008,
with 58 percent allocated to programs in 15 focus countries.5 In addition, President Bush
has requested that Congress reauthorize PEPFAR for $30 billion dollars over 5
additional years.

The Office of the Global AIDS Coordinator (Coordinator) at the Department of State
oversees accountability for the results of PEPFAR. The Coordinator manages all U. S.
Government (USG) international HIV/AIDS assistance and approves and coordinates
the efforts of the participating agencies and departments. PEPFAR funds are
appropriated to the Department of State. A portion of the funds is allocated or
transferred to USAID, with USAID assigned certain aspects of implementation. The
Coordinator also issues annual guidance concerning country operational plans and
mandatory targets.

In September 2005, USAID contracted with the Partnership for Supply Chain
Management (the Partnership) to procure commodities for the care and treatment of
HIV/AIDS and related infections, and to provide related technical assistance. This
centrally managed contract is an indefinite quantity contract with a maximum ceiling
price of $7 billion. USAID/Washington’s contracting officer issues task orders against
the contract as needs become defined. The first task orders issued call for up to $652
million over 3 years to procure and distribute antiretroviral drugs and other needed
commodities, and to provide technical assistance for supply chains. Missions access
the task orders by allocating mission funding to the contract. The task orders have
estimated completion dates of September 29, 2008.

In March 2004, the Government of the Socialist Republic of Vietnam (Government of
Vietnam) released the National Strategic Plan on HIV/AIDS Prevention for 2004–2010
with a Vision to 2020 (National Strategic Plan). The strategy provides the framework for
a comprehensive national response to the epidemic, calling for mobilization of
government and community-level organizations across multiple sectors. In June 2004,
Vietnam became the 15th focus country of PEPFAR.

As of September 30, 2007, USG departments and agencies had procured nearly $111
million in commodities through the contract with the Partnership. About $6.3 million, or 6
percent, of these commodities were procured by USAID/Vietnam through the first task


4
 The human immunodeficiency virus (HIV) causes acquired immunodeficiency syndrome (AIDS),
which is the final stage of HIV infection. Although, there is no cure for AIDS at this time,
antiretroviral therapy suppresses the replication of the HIV virus in the body and can significantly
prolong and improve the quality of life.
5
 The 15 focus countries are Botswana, Côte d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia,
Nigeria, Rwanda, South Africa, Tanzania, Uganda, Zambia, Guyana, Haiti, and Vietnam.



                                                                                                  3
order described above. 6 The Partnership’s Supply Chain Management System in
Vietnam managed procurement and distribution of such commodities.

The United States Embassy/Hanoi’s PEPFAR Team 7 worked in partnership with the
Government of Vietnam, international organizations, and nongovernmental organizations
to implement comprehensive HIV prevention, treatment, and care programs in line with
the National Strategic Plan. In August 2005, the Government of Vietnam started
providing PEPFAR-funded antiretroviral therapy services at its public health facilities.

At the time of the audit,8 USAID/Regional Development Mission Asia’s Office of Public
Health managed PEPFAR commodities in Vietnam through its offices in Bangkok and
Hanoi. As of September 30, 2007, USAID had obligated $15.7 million and disbursed
$6.3 million for PEPFAR commodities in Vietnam. On March 20, 2008, USAID
established the Office of the USAID Representative in Vietnam (USAID/Vietnam),
reporting directly to USAID’s Asia Bureau in Washington. On the same date,
USAID/Vietnam took responsibility for all USAID bilateral programs in that country,
including management of USAID-funded activities under PEPFAR.

AUDIT OBJECTIVE
The Office of Inspector General conducted this audit as part of its fiscal year 2008 audit
plan to answer the following question:

      Has USAID/Vietnam procured, deployed, and warehoused its PEPFAR
      commodities to help ensure that intended results were achieved, and what
      has been the impact?

This audit was part of the Office of Inspector General’s multicountry audit of USAID’s
procurement and distribution of PEPFAR commodities in Côte d’Ivoire, Mozambique,
Haiti, and Zambia.

Appendix I contains a discussion of the audit scope and methodology.




6
    These figures were unaudited.
7
 United States Embassy/Hanoi’s PEPFAR Team was composed of staff from the State
Department, Centers for Disease Control and Prevention, Department of Defense, and USAID.
8
    Audit fieldwork was conducted from February 19 to March 13, 2008.



                                                                                        4
AUDIT FINDINGS

USAID/Vietnam procured, deployed, and warehoused its President's Emergency Plan
for AIDS Relief (PEPFAR) commodities to help ensure that intended results were
achieved. Additionally, the mission provided PEPFAR antiretroviral drugs that made a
significant impact by helping people with HIV/AIDS live longer and healthier lives.
Specifically, the mission achieved the following:

Procured – In fiscal year (FY) 2007, USAID/Vietnam procured about 96 percent of its
planned procurement of commodities reported in the 2006 country operational plan. The
mission budgeted $6.6 million to procure antiretroviral drugs and HIV test kits, and it
procured $6.3 million worth of these commodities.9

Deployed – Commodities were deployed first to the Partnership’s Supply Chain
Management System subcontracted warehouses in Hanoi and Ho Chi Minh City. The
Supply Chain Management System then distributed the commodities to the Government
of the Socialist Republic of Vietnam’s (Government of Vietnam) public health facilities.
The Supply Chain Management System and the health facilities regularly inspected the
quality of these commodities for patient care. At the warehouses and health facilities
tested, staff reported that antiretroviral drugs and lab supplies were available when
needed. At the seven selected health facilities visited that provided antiretroviral
therapy, the availability of HIV test kits, laboratory equipment, lab supplies, and
antiretroviral drugs helped individuals on antiretroviral therapy as of
September 30, 2007, as shown in table 1 below.

     Table 1: Number of Individuals on Antiretroviral Therapy at Facilities Visited

                                                                             Individuals on
                   Health Facilities Visited
                                                              Location        Antiretroviral
                     By the Audit Team
                                                                               Therapy10
     1.   Tay Ho District outpatient clinic               Hanoi                    152
     2.   Cam Pha outpatient clinic                       Quang Ninh               287
     3.   Quang Ninh General Hospital outpatient clinic   Quang Ninh               568
     4.   District 8 outpatient clinic                    Ho Chi Minh City         398
     5.   Bin Thanh District outpatient clinic            Ho Chi Minh City         639
     6.   Thu Duc District outpatient clinic              Ho Chi Minh City         477
     7.   An Hoa, District 6 outpatient clinic            Ho Chi Minh City         480
          Total                                                                   3,001


9
 The planned figure represents the amount reported in Vietnam’s FY 2006 country operational
plan for the Partnership for Supply Chain Management (the Partnership), the mission’s primary
commodity procurement partner. The procured amount was reported by the Partnership, and
was unaudited.
10
  Some of the numbers of individuals on antiretroviral therapy were subsequently adjusted based
on the Office of Inspector General’s audit testing of detailed records at the selected health
facilities.



                                                                                               5
Warehoused – At the seven health facilities and the three warehouse facilities visited,
storage conditions generally met the standards set by the Government of Vietnam’s
Ministry of Health and the World Health Organization. The warehouse facilities each
received an ISO 9001:2000 certification for quality management from the International
Organization for Standardization, the world’s largest, internationally recognized
standards-setting and accreditation body.




                                                         Photograph of PEPFAR antiretroviral
                                                         drugs stored in a modern warehouse
                                                         in Hanoi, Vietnam (Office of
                                                         Inspector General, February 2008).




Intended Results – Although the Office of the Global AIDS Coordinator has not
established any required indicators related to the procurement, deployment, or
warehousing of commodities, a related indicator “the number of individuals on
antiretroviral therapy” showed that USAID/Vietnam’s efforts have achieved substantial
results in this area. Specifically, the mission’s use of PEPFAR funds contributed to
8,991 individuals who were on antiretroviral therapy as of September 30, 2007, which
was 120 percent of the mission’s target of 7,500 individuals.

The target was exceeded because the Supply Chain Management System in Vietnam
procured more drugs to treat more individuals than originally planned when it bought
generics at much lower costs. In March 2006, the Government of Vietnam first allowed
generic antiretroviral drugs into the country. In August 2006, the Supply Chain
Management System delivered its first shipment of generic antiretroviral drugs. Since
then, costs were reduced by about 30 percent.

Impact – USAID/Vietnam’s efforts under PEPFAR made a significant impact by
increasing access to antiretroviral therapy and helping people with HIV/AIDS live longer
and healthier lives. Before the Government of Vietnam’s Ministry of Health launched its
national AIDS treatment program in 2003, very few people had access to life-extending
antiretroviral drugs. In August 2005, the Ministry of Health started providing PEPFAR-
funded antiretroviral therapy services at its public health facilities. From interviews with
patients receiving antiretroviral therapy at each of the health facilities visited and other
data, there was strong evidence that the antiretroviral therapy was making a positive
impact. Although recent data were limited, studies conducted by Family Health
International showed significant improvements in both clinical and immune status of




                                                                                          6
patients in the first 12 months following antiretroviral therapy initiation, and overall
mortality rates were lower for people living with HIV/AIDS.11




                                                   Photograph of a pharmacist preparing
                                                   a prescription of antiretroviral drugs at
                                                   a PEPFAR-supported clinic located in
                                                   Ho Chi Minh City, Vietnam (Office of
                                                   Inspector General, March 2008).




Despite USAID/Vietnam’s achievements, the following section discusses areas where
the mission could help strengthen recordkeeping and inventory management of
PEPFAR commodities at warehouses and health facilities, and improve the accuracy of
reporting on the “number of individuals on antiretroviral therapy” at the Government of
Vietnam’s health facilities.

Recordkeeping and Inventory
Management of PEPFAR
Commodities Need Strengthening

 Summary: Management controls were to be implemented at warehouses and health
 facilities to ensure that PEPFAR commodities are properly safeguarded, tracked,
 accounted for, and used for their intended purpose. However, a number of
 discrepancies were discovered with recordkeeping and drug inventory counts at the
 warehouses and health facilities tested. They occurred primarily because of weak
 recordkeeping and inventory management practices. As a result, inaccurate
 recordkeeping could impact on the amount of drugs ordered at each health facility
 and could lead to stock-outs, shrinkage, and waste.

According to the Ministry of Health’s policies and the Supply Chain Management
System’s guidance provided to warehouses and health facilities in Vietnam,
management controls were to be implemented to ensure that PEPFAR commodities are

11
  Family Health International received PEPFAR funding from USAID/Vietnam to implement
HIV/AIDS prevention, care, and treatment programs in Vietnam.


                                                                                               7
properly safeguarded, tracked, accounted for, and used for their intended purpose.
However, the audit identified a number of discrepancies with recordkeeping and
inventory management of PEPFAR commodities at the selected warehouses and health
facilities. This issue merits reporting because it was pervasive and systemic across
most of the sites visited. Discrepancies were identified at 2 of 3 warehouses and 7 of 9
health facilities visited.

Warehouses – The Supply Chain Management System in Vietnam subcontracted most
of its procurement, storage, and distribution of PEPFAR commodities to Central
Pharmaceutical Company #1 (Central) and some to Delta Trading and Technical
Services (Delta). Central handled antiretroviral drugs, while Delta exclusively handled
HIV test kits, lab supplies, and equipment. Each subcontractor had warehouse
operations dedicated to PEPFAR commodities in Hanoi and Ho Chi Minh City. The audit
team made site visits to both of Central’s warehouses and Delta’s warehouse in Hanoi.

Discrepancies involving antiretroviral drugs were identified at both of Central’s
warehouses visited. Specifically, a shortage of 281 bottles of Efavirenz and an overage
of 10 bottles of Lamivudine were discovered when comparing the Office of Inspector
General’s inventory counts with warehouse records at Central’s branch in Ho Chi Minh
City. Additionally at the same warehouse, an error was discovered resulting in an
overstatement of 400 bottles of Efavirenz when reconciling the beginning and ending
balances of Central’s monthly stock reports for July, August, and September 2007. At
Central’s main warehouse in Hanoi, a spreadsheet calculation error with a unit price was
identified in the July 2007 monthly stock report, resulting in an overstatement of
$155,709.

The primary causes of the inventory count and monthly stock report differences were
weak recordkeeping and inventory management practices and lack of qualified or
sufficient staff at Central’s warehouse in Ho Chi Minh City. According to Central, the
storekeeper did not record receipt and distribution of commodities in the warehouse’s
stock cards, which caused the reconciling differences. At the time of the audit, Central
had only one storekeeper working at the warehouse. A supply chain expert from the
Supply Chain Management System in Vietnam stated that Central should assign more
qualified storekeepers at sufficient staffing levels in the warehouse. Additionally, as a
contributing cause, the warehouse’s location was far (about a 1-hour drive) from
Central’s main office in Ho Chi Minh City, which made it difficult for Central to provide
continuous management and oversight of the commodities stored at the warehouse.

Health Facilities – Of the 9 selected health facilities we tested, 7 were outpatient clinics
providing antiretroviral therapy and 2 were volunteer counseling and HIV testing sites.
Of the 7 clinics providing antiretroviral therapy, 6 (86 percent) had variances in drug
stock levels ranging from 2 to more than 240 pills when the Office of Inspector General’s
inventory counts were compared with clinic records.

The primary causes of the stock count differences were extensive reliance on manual
recordkeeping and the lack of qualified or sufficient pharmacy staff. Most of the clinics
visited employed manual recordkeeping to track, manage, and report on PEPFAR
commodities. PEPFAR implementing partners and clinic managers explained that the
lack of an automated system increased the risk of error at these clinics. In addition, they
stated that some clinics employed new and inexperienced pharmacy staff, while others
did not have enough staff to handle the extensive workload that is required for manual


                                                                                          8
recordkeeping and stock management. There was also a lack of supervisory oversight
of pharmacy staff to conduct spot checking of their recordkeeping.

Inaccurate recordkeeping and weak inventory management could have an impact on the
amount of drugs ordered at each clinic and could lead to stock-outs, shrinkage, and
waste. Additionally, the increased risk of drug stock transactions not promptly recorded,
properly classified, or fully accounted for will affect the preparation of timely accounts
and reliable financial and other reports.

However, at Bin Thanh District clinic in Ho Chi Minh City, the site used manual
recordkeeping but implemented a strong control environment. For example, the clinic
implemented procedures to (1) compare drugs received with what was ordered;
(2) update and reconcile pharmacy records at the end of each day; (3) cross-check
pharmacy records with the clinic’s patient records; (4) open only one container of drugs
at a time for dispensing; and (5) perform supervisory spot checks to ensure that clinic
staff were following established procedures. As a result, the clinic’s management
practices were impressive and the audit found no discrepancies.

It should be noted that Bin Thanh District clinic had the highest number of individuals on
antiretroviral therapy of the clinics tested, yet the site was able to successfully manage
its pharmacy using manual recordkeeping. The Bin Thanh District clinic could serve as
a model for other clinics to follow and adopt its best practices in recordkeeping and
inventory management of PEPFAR commodities.

Although the Office of Inspector General recognizes that the Government of Vietnam
manages all of the health facilities in the country and that USAID/Vietnam and its
partners have limited control over how PEPFAR commodities are managed at the
warehouses and health facilities, this audit makes the following recommendations to
help strengthen recordkeeping and inventory management of PEPFAR commodities:

   Recommendation No. 1: We recommend that USAID/Vietnam direct the Supply
   Chain Management System in Vietnam to provide technical assistance and
   monitoring as needed at its subcontracted warehouses to strengthen
   recordkeeping and inventory management of PEPFAR commodities.

   Recommendation No. 2: We recommend that USAID/Vietnam direct the Supply
   Chain Management System in Vietnam to work in collaboration with PEPFAR
   implementing partners to provide technical assistance and monitoring as needed
   at the Government of Vietnam’s health facilities to strengthen recordkeeping and
   inventory management of PEPFAR commodities by using best practices from
   other health facilities with strong management controls.

   Recommendation No. 3: We recommend that USAID/Vietnam in collaboration
   with its PEPFAR implementing partners work with the Government of Vietnam to
   conduct an assessment of staffing requirements in the area of pharmacy
   management at the health facilities.




                                                                                        9
PEPFAR Performance
Results Were Not Always
Reported Accurately

 Summary: Data quality was to be emphasized at the health facilities to ensure that
 performance results were reported accurately to USAID. However, discrepancies
 were found in the “number of individuals on antiretroviral therapy”, a key PEPFAR
 performance indicator. This occurred because of weak internal control procedures
 and uncertainty concerning what should be counted and reported for the indicator at
 the health facilities. As a result, the discrepancies increased the risk that USAID may
 use unreliable data and inaccurately report its PEPFAR performance results. The
 discrepancies could also affect the Supply Chain Management System’s quantity
 estimates when ordering drugs for the health facilities.

PEPFAR emphasizes data quality because it is explicitly evidence-based and results-
oriented. PEPFAR’s emphasis on evidence and on results places data quality at the
center of a program in which target setting and results reporting are closely linked.

Additionally, USAID’s Automated Directives System ADS 203.3.5.2 requires that Agency
performance data reported to USAID/Washington or externally for Government
Performance and Results Act reporting purposes must have a data quality assessment
at some time within 3 years prior to submission. Operating units may choose to conduct
data quality assessments more frequently if needed.

However, 4 of the 7 outpatient clinics tested (57 percent) had discrepancies in their
“number of individuals on antiretroviral therapy” as of September 30, 2007, as shown in
table 2. The “number of individuals on antiretroviral therapy” is an important performance
indicator because it is one of the key performance indicators required by PEPFAR and it
was used by the Supply Chain Management System in Vietnam to estimate the quantity
of drugs to order for each health facility.

  Table 2: Discrepancies in the Number of Individuals on Antiretroviral Therapy

                                           (b)                         (d)
                               (a)
                                       Per Clinic       (c)       Per PEPFAR
                               Per
    Health Facilities                    Patient    Difference   Requirements   Difference
                              Clinic
        Visited                         Records                  (What should
                            Pharmacy
                                       (Reported     (a) – (b)    be reported    (b) – (d)
                             Records
                                       to USAID)                   to USAID)
 Cam Pha clinic               287         284           3             287           -3
 Quang Ninh General
                              568         569           -1           568            1
 Hospital
 District 8 clinic            411         398           13           398            0
 An Hoa District 6 clinic     481         497          -16           480            17

First, there were discrepancies between the clinics’ pharmacy and patient records, as
shown in columns (a) and (b) in table 2. The clinics’ pharmacy records kept track of
receiving and dispensing of antiretroviral drugs to individuals, and the clinics’ patient
records contained details of treatment for individuals on antiretroviral therapy.


                                                                                         10
Discrepancies occurred between the two record books because clinic staff did not
perform data reconciliations. For example, An Hoa District 6 clinic explained that its
discrepancies were due to miscommunication between its pharmacy and treatment
departments. The Cam Pha clinic noted a lack of coordination between its pharmacy
staff and the project assistant who prepared the performance indicators report for
USAID.

Second, there were differences between what was reported and what should be
reported to USAID as required by PEPFAR guidance, shown in columns (b) and (d) in
table 2. According to PEPFAR guidance, individuals on antiretroviral therapy who
started treatment or who transferred in during the reporting period can be counted at the
end of the reporting period; whereas individuals who died, stopped treatment,
transferred out, or were otherwise lost during the reporting period are considered not on
antiretroviral therapy at the end of the reporting period, and therefore not counted.

There was a lack of clear understanding of such reporting requirements on what should
be counted and reported for the indicator. For example, An Hoa District 6 clinic included
patients who stopped treatment during the month in its performance indicator report sent
to USAID, but excluded these individuals in its pharmacy report. On the other hand,
District 8 clinic explained that it excluded patients who stopped treatment during the
month in its performance indicator report sent to USAID, but included these individuals in
its pharmacy report.

Third, there was lack of supervisory review of the monthly indicator performance reports
sent to USAID. Supervisory review is an important internal control because it helps
ensure the propriety and integrity of performance measures and indicators, as well as
the completeness and accuracy of records.              The director of Cam Pha clinic
acknowledged this important internal control and stated that the clinic would provide
better supervision to ensure accuracy in its future reports.

These discrepancies increased the risk that reported data may not accurately reflect
whether PEPFAR is achieving its objectives. Further, PEPFAR target-setting and results
reporting may use invalid and unreliable data, which could affect the Supply Chain
Management System’s quantity estimates when ordering drugs for the health facilities.

Because the above issues point to the need for USAID/Vietnam and its partners to
provide more technical assistance, monitoring, and data quality assessments at the
health facilities, this audit makes the following recommendation:

   Recommendation No. 4: We recommend that USAID/Vietnam in collaboration
   with its PEPFAR implementing partners work with the Government of Vietnam to
   provide technical assistance, monitoring, and data quality assessments to the
   health facilities in the area of data collection and reporting on PEPFAR
   performance indicators, with priority given to the “number of individuals on
   antiretroviral therapy”.




                                                                                       11
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Vietnam agreed with the findings and recommendations contained in the draft
report. Based on a review of the mission’s comments, detailed actions, and subsequent
supporting documents received, the Office of Inspector General determined that final
actions have been taken on Recommendation Nos. 1, 2, and 4 and a management
decision has been reached for Recommendation No. 3.

In response to Recommendation No. 3, USAID/Vietnam stated that a human resources
assessment of staffing requirements in the Government of Vietnam was currently taking
place as part of the PEPFAR activities under its 2007 Country Operational Plan. The
mission anticipates that the results of this assessment will be completed by August 2008
and the results will assist the PEPFAR planning process for its 2009 Country
Operational Plan, at which time the mission could take any remedial actions as required.
To reach final action on this recommendation, the mission will need to complete the
human resources assessment. A determination of final action for Recommendation
No. 3 will be made by the Audit Performance and Compliance Division (M/CFO/APC)
upon completion of the proposed corrective actions.

USAID/Vietnam’s written comments on the draft report are included in their entirety
(without attachments) as appendix II to this report.




                                                                                     12
                                                                           APPENDIX I 




SCOPE AND METHODOLOGY

Scope

The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

This audit was designed to determine whether USAID/Vietnam procured, deployed, and
warehoused its PEPFAR commodities to help ensure that intended results were
achieved, and what its impact has been. This report summarizes the results of audit
work conducted primarily in Vietnam and at USAID’s Regional Development Mission
Asia in Thailand from February 19 to March 13, 2008.

USAID/Vietnam primarily used the Partnership for Supply Chain Management’s (the
Partnership) Supply Chain Management System in Vietnam to procure commodities, but
a small number of commodities were also procured through existing cooperative
agreements with Family Health International and Pact, Inc. The scope of the audit was
limited to testing such commodities that were procured, deployed, and warehoused in
fiscal year (FY) 2007. For purposes of the audit, commodities were products purchased
with PEPFAR funding for the prevention and treatment of HIV/AIDS, including test kits,
lab equipment, lab supplies, and essential antiretroviral drugs and medicines used to
prevent and treat HIV/AIDS-related opportunistic infections.

Additionally, the scope included verifying the number of individuals on antiretroviral
therapy as of September 30, 2007, a required key PEPFAR performance indicator
related to the procurement of antiretroviral drugs.

In planning and performing the audit, we assessed the effectiveness of internal controls
related to the procurement, storage, and distribution of PEPFAR commodities. These
included controls over reporting the number of individuals on antiretroviral therapy and
controls over antiretroviral drugs and HIV test kit storage conditions.

Methodology

To answer the audit objective, we interviewed officials from the Regional Development
Mission Asia in Thailand, USAID/Vietnam, Centers for Disease Control and
Prevention/Vietnam, United States Embassy/Hanoi, Vietnam’s Ministry of Health, and
staff from selected implementing partners and public health facilities. We reviewed
relevant documentation, such as USAID/Vietnam’s cooperative agreements, partners’
subagreements, inventory records, financial records, mission and partners’ periodic
reports, trip reports, and other records showing actions taken by the mission and
partners to manage PEPFAR commodities.

We conducted site visits at 3 of the 4 warehouses that received and distributed PEPFAR
commodities in Vietnam during FY 2007. At the two warehouses visited in Hanoi and


                                                                                     13
                                                                                 APPENDIX I


one in Ho Chi Minh City, we observed storage conditions, conducted test counts of
selected antiretroviral drugs and laboratory supplies, reviewed inventory records,
interviewed responsible staff, and inquired as to the availability of essential medicines
and laboratory supplies. A senior laboratory scientist from the Centers for Disease
Control and Prevention/Vietnam accompanied the audit team to provide expertise on the
storage conditions of lab supplies and equipment.

The audit team judgmentally selected 9 of the 76 health facilities, representing about
38 percent of the total dollar value of PEPFAR commodities dispensed in FY 2007. In
making the selection, we considered several factors, such as the dollar value of drugs
dispensed, types of health facilities (clinics, hospitals, HIV testing centers), logistical and
geographical considerations, and the “number of individuals receiving antiretroviral
therapy” at each health facility.

Of the 9 health facilities selected, 7 were outpatient clinics providing antiretroviral
therapy and 2 were volunteer counseling and HIV testing sites. At the 7 clinics and 2
volunteer counseling and HIV testing sites visited in Hanoi, Quang Ninh, and Ho Chi
Minh City, we observed conditions in the storerooms, dispensaries, and laboratories;
conducted test counts of selected antiretroviral drugs, test kits, and laboratory supplies;
inquired as to the availability of essential medicines and laboratory supplies; reviewed
monthly reports and inventory records; and interviewed facility staff.

At the 7 outpatient clinics visited, we reviewed support for the “number of individuals
on antiretroviral therapy” reported to USAID/Vietnam as of September 30, 2007. The
review accounted for 3,001 individuals on antiretroviral therapy, representing 33 percent
of the number reported to the mission.

We considered the following definitions and materiality thresholds to answer the audit
objective:

   •	 Commodities were considered to have been procured if at least 90 percent of
      the procurement funding reported in the 2006 country operational plan was
      used to procure PEPFAR commodities during FY 2007.

   •	 Commodities were considered to have been deployed if products procured
      were distributed to storage and/or health facilities and to patients on
      antiretroviral therapy.

   •	 Commodities were considered to have been warehoused if storage
      conditions at tested storage facilities met Vietnam Ministry of Health
      standards.

   •	 The Office of the Global AIDS Coordinator has not established any required
      targets or indicators for measuring commodity procurement results.
      Therefore, for purposes of this audit, we defined intended results as the
      procuring, storing, and distribution of commodities planned in the 2006
      country operational plan, and achievement of the required FY 2007 PEPFAR
      target for “the number of individuals on antiretroviral therapy.”




                                                                                            14
                                                                          APPENDIX II 




MANAGEMENT COMMENTS




23 June 2007


MEMORANDUM


TO:            Regional Inspector General/Manila, Catherine M. Trujillo

FROM:          USAID/Vietnam Acting Representative Roger Carlson /s/

SUBJECT:       Mission Response to Audit of USAID/Vietnam’s Procurement and
               Distribution of Commodities for the President’s Emergency Plan for
               AIDS Relief (Report No. 5-440-08-00X-P).


Thank you for the opportunity to respond to the draft Audit Report regarding
USAID/Vietnam’s Procurement and Distribution of Commodities for the President’s
Emergency Plan for AIDS Relief (Report No. 5-440-08-00X-P).

The stated objective of this audit was to determine whether USAID/Vietnam procured,
deployed and warehoused its commodities to help ensure that intended results were
achieved. While the overall appraisal was admirable, the audit team made four
recommendations to strengthen record keeping and inventory management of PEPFAR
commodities. USAID/Vietnam fully accepts these findings, and has taken steps to
address the concerns as addressed below in response to the four audit
recommendations.

Recommendation No. 1: We recommend that USAID/Vietnam direct the Supply
Chain Management System in Vietnam to provide technical assistance and monitoring
as needed at its subcontracted-warehouses to strengthen recordkeeping and inventory
management of PEPFAR commodities.

Comments: USAID/Vietnam agrees with this recommendation. In response, a letter has
been sent to Supply Chain Management Systems (SCMS) (Attachment A) directing
them to complete this recommendation and has received a response from SCMS
(Attachment B) that systems are now in place to improve record keeping and strengthen
inventory management of PEPFAR commodities. Systematic monitoring by SCMS staff
of warehouses will continue throughout the PEPFAR program.


                                                                                   15

                                                                             APPENDIX II



Recommendation No. 2: We recommend that USAID/Vietnam direct the Supply
Chain Management System in Vietnam to work in collaboration with PEPFAR
implementing partners to provide technical assistance and monitoring as needed at the
Government of Vietnam’s health facilities to strengthen recordkeeping and inventory
management of PEPFAR commodities by using best practices from other health facilities
with strong management controls.

Comments: USAID/Vietnam agrees with this recommendation. In response, a letter has
been sent to Supply Chain Management Systems (SCMS) (Attachment A) directing
them to complete this recommendation and has received a response from SCMS
(Attachment B) that improved recordkeeping and reporting systems are now in place in
all health facilities, including Government of Vietnam’s health facilities. Improved
monitoring systems will allow implementing partners and SCMS staff to continually verify
these recordkeeping and reporting systems on a regular basis throughout the PEPFAR
program.

Recommendation No. 3: We recommend that USAID/Vietnam in collaboration with its
PEPFAR implementing partners work with the Government of Vietnam to conduct an
assessment of staffing requirements in the area of pharmacy management at the health
facilities.

Comments: USAID/Vietnam agrees with this recommendation. As part of the PEPFAR
activities under COP07, a human resources assessment of Government of Vietnam
staffing requirements is currently taking place. It is expected that the results of this
assessment will be completed by August, 2008 and that the results will inform the
PEPFAR planning process for COP09, at which time we can take any remedial actions
as required.

Recommendation No. 4: We recommend that USAID/Vietnam in collaboration with its
PEPFAR implementing partners work with the Government of Vietnam to provide
technical assistance, monitoring, and data quality assessments to the health facilities in
the area of data collection and reporting on PEPFAR performance indicators, with
priority given to the “number of individuals on antiretroviral therapy”.

Comments: USAID/Vietnam agrees with this recommendation. In response, a letter has
been sent to Supply Chain Management Systems (SCMS) (Attachment A) directing
them take the lead in working with implementing partners and the Government of
Vietnam to improve technical assistance, monitoring, and data quality assessments to
the health facilities in the area of data collection and reporting on PEPFAR performance
indicators. Special attention has been given to reporting accurate numbers of individuals
on antiretroviral therapy without duplication. SCMS reports that an on-going dialogue
has been occurring since March and that the Government of Vietnam is establishing a
system for verifying its reported ART numbers. The system should be completed and
tested and be available for quarterly reports starting with the 4th quarter reports of
FY2008 to PEPFAR.

For further detailed information, we have attached the responses from SCMS
(Attachment B) which includes their correspondence with implementing partners, health
facilities, USAID, and the Government of Vietnam along with an outline of their plans to
correct any remaining issues.


                                                                                         16
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
